Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  LOUISIANA STATE MEDICAID
    FRAUD CONTROL UNIT:
     2012 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                       December 2012
                       OEI-09-12-00010
LOUISIANA STATE MEDICAID FRAUD CONTROL UNIT:
2012 ONSITE REVIEW
OEI-09-12-00010

WHY WE DID THIS STUDY
The Office of Inspector General (OIG) oversees all Medicaid Fraud Control Units
(MFCU or Unit) with respect to Federal grant compliance. As part of this oversight,
OIG reviews all Units. These reviews assess Unit performance in accordance with the
12 MFCU performance standards and monitor Unit compliance with Federal grant
requirements.
HOW WE DID THIS STUDY
We reviewed data from seven sources: (1) a review of documents, policies, and
procedures related to the Unit’s operations, staffing, and caseload; (2) a review of
financial documentation; (3) structured interviews with key stakeholders; (4) a survey of
Unit staff; (5) structured interviews with the Unit’s management; (6) an onsite review of
case files; and (7) an onsite review of Unit operations.
WHAT WE FOUND
From fiscal year (FY) 2009 through FY 2011 (our period of review), the Unit reported
recoveries of $95 million, obtained 192 convictions and 86 civil judgments or
settlements, and received 1,043 referrals. Provider fraud referrals to the Unit increased
and the Unit received patient abuse and neglect referrals from a variety of sources. All
reviewed Unit case files contained documentation indicating supervisory approval to
open cases, and 94 percent of closed case files contained documentation indicating
supervisory approval to close cases. Twenty-two percent of the Unit case files lacked
documentation indicating at least one supervisory review and 28 percent lacked
documentation indicating additional, periodic supervisory review. The Unit did not refer
14 percent of sentenced providers to OIG for program exclusion within the appropriate
timeframe. The Unit had not updated its memorandum of understanding (MOU) with the
Louisiana Department of Health and Hospitals (DHH) to reflect current law and practice.
The Unit maintained proper fiscal control of its resources; however, it did not report
program income properly in FYs 2010 and 2011. Except for not reporting all of its
program income, we found no evidence of Unit noncompliance with applicable laws,
regulations, and policy transmittals.
WHAT WE RECOMMEND
We recommend that the Louisiana Unit: (1) revise its policies and procedures to ensure
that periodic supervisory reviews are documented in Unit case files, (2) ensure that letters
referring providers for exclusion are submitted to OIG within the appropriate timeframe,
(3) revise its MOU with DHH to reflect current law and practice, and (4) ensure that all
program income is reported properly on its Federal Financial Status Reports. The Unit
concurred with all but the first of our four recommendations. However, the Unit is
nevertheless implementing new procedures to ensure that case files include
documentation of all future supervisory reviews.
TABLE OF CONTENTS
Objective ......................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................5
Findings........................................................................................................8
       From FY 2009 through FY 2011, the Unit reported recoveries
       of $95 million and obtained 192 convictions and 86 civil
       judgments or settlements..................................................................8
       From FY 2009 through FY 2011, provider fraud referrals to the
       Unit increased by 21.4 percent and the Unit received patient
       abuse and neglect referrals from a variety of sources ......................8
       All reviewed case files contained documentation indicating
       supervisory approval to open cases and 94 percent of closed
       case files contained documentation indicating supervisory
       approval to close cases ...................................................................10
       Twenty-two percent of the total Unit case files lacked
       documentation indicating at least one supervisory review and
       28 percent lacked documentation indicating additional,
       periodic supervisory reviews .........................................................10
       The Unit did not refer 14 percent of sentenced providers to
       OIG for program exclusion within the appropriate timeframe ...... 11
       The Unit had not updated its MOU with DHH to reflect
       current law and practice ................................................................. 11
       The Unit maintained proper fiscal control of its resources,
       but did not report program income properly in FYs 2010
       and 2011 .........................................................................................12
Conclusion and Recommendations ............................................................13
       Unit Comments and Office of Inspector General Response ..........15
Appendixes ................................................................................................16
       A: Performance Standards for Medicaid Fraud Control Units .....16
       B: Referrals of Provider Fraud and Patient Abuse and Neglect
       to the Medicaid Fraud Control Unit by Source, Fiscal Years
       2009 through 2011 .........................................................................20
       C: Investigations Opened and Closed by Provider Category
       and Case Type, Fiscal Years 2009 through 2011 ...........................21
       D: Case File Review Population, Sample Size Counts, and
       Confidence Interval Estimates .......................................................23
           E: Unit Comments.........................................................................25
Acknowledgments......................................................................................30
                   OBJECTIVE
                   To conduct an onsite review of the Louisiana State Medicaid Fraud
                   Control Unit (MFCU or Unit).

                   BACKGROUND
                   The mission of State MFCUs, as established by Federal statute, is to
                   investigate and prosecute Medicaid provider fraud and patient abuse and
                   neglect under State law. 1 Pursuant to Title XIX of the SSA, each State
                   must maintain a certified Unit unless the Secretary of Health and Human
                   Services (HHS) determines that operation of a Unit would not be
                   cost-effective because (1) minimal Medicaid fraud exists in that State; and
                   (2) the State has other, adequate safeguards to protect Medicaid
                   beneficiaries from abuse and neglect. 2 Currently, 49 States and the
                   District of Columbia (States) have created such Units. 3 In fiscal year
                   (FY) 2011, combined Federal and State grant expenditures for the Units
                   totaled $208.6 million, of which Federal funds represented
                   $156.7 million.4 That year, the 50 MFCUs employed 1,833 individuals.
                   Each Unit must employ an interdisciplinary staff that consists of at least an
                   investigator, an auditor, and an attorney to carry out its duties and
                   responsibilities in an effective and efficient manner. 5 The staff reviews
                   complaints provided by the State Medicaid agency and other sources and
                   determines their potential for criminal prosecution and/or civil action.
                   Collectively, in FY 2011, the 50 Units reported 1,230 convictions and
                   906 civil settlements or judgments. That year, the Units reported
                   recoveries of approximately $1.7 billion. 6, 7
                   Units are required to have either statewide authority to prosecute cases or
                   formal procedures to refer suspected criminal violations to an office with
                   such authority. 8 In Louisiana and 43 other States, the Units are located



                   1
                     Social Security Act (SSA) § 1903(q).
                   2
                     SSA § 1902(a)(61). Regulations at 42 CFR § 1007.11(b)(1) add that the Unit’s
                   responsibilities may include reviewing complaints of misappropriation of patients’
                   private funds in residential health care facilities.
                   3
                     North Dakota and the territories of American Samoa, Guam, the Northern Mariana
                   Islands, Puerto Rico, and the U.S. Virgin Islands have not established Units.
                   4
                     In this report, “fiscal year” refers to the Federal FY (October 1 through September 30).
                   5
                     SSA § 1903(q)(6) and 42 CFR §1007.13.
                   6
                     Office of Inspector General (OIG), State Medicaid Fraud Control Units Fiscal Year
                   2011 Grant Expenditures and Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-
                   fraud-control-units-mfcu/ on April 16, 2012.
                   7
                     Pursuant to 42 CFR § 1007.17, Units report the total amount of recovered funds in their
                   annual reports to OIG.
                   8
                     SSA § 1903(q)(1).

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                           1
                   within offices of State Attorneys General that have this authority. In the
                   remaining six States, the Units are located in other State agencies; 9
                   generally, such Units must refer cases to other offices with prosecutorial
                   authority. Additionally, each Unit must be a single identifiable entity of
                   State government, distinct from the State Medicaid agency, and each Unit
                   must develop a formal agreement (e.g., a memorandum of understanding
                   (MOU)) that describes the Unit’s relationship with that agency. 10
                   Oversight of the MFCU Program
                   The Secretary of HHS delegated to OIG the authority to both annually
                   certify the Units and administer grant awards to reimburse States for a
                   percentage of their costs in operating them. 11 All Units are currently funded
                   by the Federal Government on a 75-percent matching basis, with the States
                   contributing the remaining 25 percent. 12 To receive Federal reimbursement,
                   each Unit must submit an initial application to OIG. 13 OIG reviews the
                   application and notifies the Unit if the application is approved and the Unit
                   is certified. Approval and certification are valid for a 1-year period; the Unit
                   must be recertified each year thereafter. 14
                   Pursuant to Title XIX of the SSA, States must operate Units that effectively
                   carry out their statutory functions and meet program requirements. 15
                   OIG developed and issued 12 performance standards to define further the
                   criteria that OIG applies in assessing whether a Unit is effectively carrying
                   out statutory functions and meeting program requirements. 16 Examples
                   include maintaining an adequate caseload through referrals from several
                   sources, maintaining an annual training plan for all three of the professional
                   disciplines (auditors, investigators, and attorneys), and establishing policy
                   and procedures manuals to reflect the Unit’s operations. See Appendix A for
                   a complete list of the performance standards.




                   9
                     In those States with a Unit, the Unit shares responsibility for protecting the integrity of
                   the Medicaid program with the section of the State Medicaid agency that functions as the
                   Program Integrity Unit. Some States also employ a Medicaid Inspector General who
                   conducts and coordinates fraud, waste, and abuse activities for the State agency.
                   10
                      SSA § 1903(q)(2) and 42 CFR § 1007.9(d).
                   11
                      The portion of funds reimbursed to States by the Federal Government for its share of
                   expenditures for the Federal Medicaid program, including the MFCUs, is called Federal
                   Financial Participation.
                   12
                      SSA § 1903(a)(6)(B).
                   13
                      42 CFR § 1007.15(a).
                   14
                      42 CFR §§ 1007.15(b) and (c).
                   15
                      SSA § 1902(a)(61).
                   16
                      59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on November 22,
                   2011. Since the time of our review, OIG has published a revision of the performance
                   standards, 77 Fed. Reg. 32645 (June 1, 2012).

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                              2
                   Louisiana Unit
                   The Unit is an autonomous entity within the Louisiana Department of
                   Justice’s Criminal Division and has the authority to prosecute Medicaid
                   fraud and patient abuse and neglect cases. At the time of our review
                   (February 2012), the Unit had 53 employees—50 located in the State
                   capital of Baton Rouge, and 1 investigator located in each of 3 satellite
                   offices. Unit investigators generally are assigned to one of five teams;
                   each team has a senior investigator as team leader. Noninvestigative
                   personnel may be assigned to a team and/or work with multiple teams,
                   according to need.
                   The Unit receives provider fraud referrals from the State Medicaid
                   agency—Louisiana Department of Health and Hospitals (DHH)—and
                   from Federal sources, such as OIG. The Unit receives patient abuse and
                   neglect referrals from DHH and the State Long-Term Care Ombudsman.
                   The Unit receives referrals of both types from various law enforcement
                   agencies and other State and local sources, such as health care providers
                   and the State survey and certification agency. From FY 2009 through
                   FY 2011, the Unit received an average of 348 referrals (see Appendix B).
                   The Unit reviews each referral and opens a case if management
                   determines the referral appears to have the potential for criminal or civil
                   prosecution and/or collection.
                   After Unit management assigns an investigator to an opened case, the
                   investigator gathers background data and presents the case to the Unit
                   Director and Chief Investigator, who collectively decide whether to
                   proceed with the investigation or refer the case to another agency. From
                   FY 2009 through FY 2011, the Unit opened an average of 348 cases
                   annually—an average of 170 provider fraud and 178 patient abuse and
                   neglect cases. 17 For additional information on the Unit’s opened and
                   closed investigations, including a breakdown by case type and provider
                   category, see Appendix C.
                   The Unit may open a case and pursue it through a variety of actions,
                   including criminal prosecution, civil action, or a combination of the two.
                   The Unit may close a case for a variety of reasons, including, but not
                   limited to, resolving it through criminal or civil action or referring it to
                   another agency. From FY 2009 through FY 2011, the Unit closed an
                   average of 357 cases annually—an average of 149 provider fraud and
                   208 patient abuse and neglect cases. 18 From FY 2009 through


                   17
                      Averages are rounded to the nearest whole number. The Unit occasionally will open
                   cases that were not formally referred by another agency. For example, a case may be
                   brought to the Unit’s attention by the media.
                   18
                      OIG analysis of Unit Quarterly Statistical Reports, FYs 2009 through 2011. The
                   number of closed cases includes multiple cases that were opened before FY 2009.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                         3
                   FY 2011, the Unit obtained an annual average of 64 convictions and
                   closed an annual average of 29 cases through civil action (Table 1).
                   Table 1: Louisiana Unit Convictions and Civil Judgments or Settlements,
                   FY 2009 Through FY 2011
                                                                                                                            Annual
                                                                       FY 2009       FY 2010        FY 2011       Total
                                                                                                                            Average

                    Convictions*                                              56             70             66      192             64


                    Civil Judgments or Settlements                            31             25             30        86            29


                   Source: OIG analysis of Unit data and Quarterly Statistical Reports, FYs 2009 through 2011.
                   *Convictions are reported to OIG at the time of sentencing. The total number of convictions does not include
                   15 convictions because those defendants were not sentenced until after our period of review (i.e., after FY 2011).

                   One of the Unit’s attorneys serves as an intake attorney on qui tam
                   (whistleblower) cases for the National Association of Medicaid Fraud
                   Control Units (NAMFCU). 19 The Unit Director and Chief Investigator
                   have both participated as speakers and organizers of NAMFCU training
                   sessions, and the Chief Investigator served on NAMFCU’s Training
                   Committee for several years. Unit investigators and attorneys directly
                   participated in several “global”—i.e., multi-State—cases for NAMFCU
                   during the review period.
                   Previous Review
                   In 2007, OIG conducted an onsite review of the Louisiana Unit and found
                   that (1) Unit employees worked in a non-MFCU capacity without
                   OIG approval and (2) MFCU grant funds were used to purchase vehicles
                   that were improperly placed under the control of another division of the
                   Louisiana Department of Justice and were used for non-MFCU activities.
                   Unit management responded that Unit employees had only worked “de
                   minimus” in a non-MFCU capacity and stated that it would remind Unit
                   employees of the pertinent regulations. The vehicles in question were
                   transferred to Unit control and the Federal Government was reimbursed
                   for related unallowable expenses. Our 2012 onsite review of the Unit
                   found no indication that either issue persisted.




                   19
                      The intake attorney monitors qui tam cases and reports on their status to NAMFCU.
                   NAMFCU is a voluntary association of all 50 Units. Among other services it provides
                   training opportunities and facilitates the settlement of “global” civil false claims cases
                   involving the U.S. Department of Justice and other State MFCUs. More information on
                   NAMFCU and its involvement in global cases is available online at
                   http://www.namfcu.net.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                                                       4
                   METHODOLOGY
                   We analyzed data from seven sources: (1) a review of documentation,
                   policies, and procedures related to the Unit’s operations, staffing, and
                   caseload for FYs 2009 through 2011; (2) a review of financial
                   documentation for FYs 2009 through 2011; (3) structured interviews with
                   key stakeholders; (4) a survey of Unit staff; (5) structured interviews with
                   the Unit’s management; (6) an onsite review of case files that were open
                   in FYs 2009 through 2011; and (7) an onsite review of Unit operations.
                   We analyzed data from all seven sources to describe the caseload and
                   assess the performance of the Unit. We also analyzed the data to identify
                   any opportunities for improvement and any instances in which the Unit
                   did not meet the performance standards or was not operating in
                   accordance with laws, regulations, and policy transmittals.20 In addition,
                   we noted any practices that appeared to benefit the Unit. We based these
                   observations on statements from Unit staff, data analysis, and our own
                   judgment. We did not independently verify the effectiveness of these
                   practices, but included the information because it may be useful to other
                   Units in their operations.
                   Data Collection and Analysis
                   Review of Unit Documentation. We requested and reviewed
                   documentation, policies, and procedures related to the Unit’s operations,
                   staffing, and cases, including its annual reports, quarterly statistical
                   reports, and responses to recertification questionnaires. We also requested
                   and reviewed the Unit’s data describing how it investigates and prosecutes
                   Medicaid cases. Data collected included information such as the number
                   of referrals received by the Unit and the number of investigations opened
                   and closed.
                   Review of Financial Documentation. To evaluate internal controls, we
                   reviewed policies and procedures related to budgeting, accounting
                   systems, cash management, procurement, property, and personnel. We
                   obtained from the Unit its claimed grant expenditures for
                   FYs 2009 through 2011 to: (1) review final Federal Status Reports 21 and
                   supporting documentation, (2) select and review transactions within direct
                   cost categories to determine if costs were allowable, and (3) verify that
                   indirect costs were accurately computed using the approved indirect cost
                   rate. Finally, we reviewed records in the HHS Payment Management

                   20
                      All relevant regulations, statutes, and policy transmittals are available online at
                   http://oig.hhs.gov.
                   21
                      The Unit transmits financial status reports to OIG’s Office of Management and Policy
                   on a quarterly and annual basis. These reports detail Unit income and expenditures.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                            5
                   System (PMS) 22 and revenue accounts to identify any unreported program
                   income. 23
                   Interviews With Key Stakeholders. We conducted structured interviews
                   with eight individual stakeholders among five agencies who were familiar
                   with Unit operations. Specifically, we interviewed DHH’s Director of
                   Program Integrity; the former State Long-Term Care Ombudsman; two
                   Assistant U.S. Attorneys based in Baton Rouge; the Louisiana Department
                   of Justice’s Criminal Division Supervisor; two OIG Special Agents based
                   in Louisiana; and an Assistant Special Agent in Charge for OIG’s
                   Region VI, which includes Louisiana. 24 These interviews focused on the
                   Unit’s interaction with external agencies, Unit operations, opportunities
                   for improvement, and any practices that appeared to benefit the Unit and
                   that may be useful to other Units in their operations.
                   Survey of Unit Staff. We conducted an electronic survey of all
                   nonmanagerial Unit staff. We requested and received responses from each
                   of the 50 nonmanagerial staff members, for a 100-percent response rate. 25
                   Our questions focused on operations of the Unit, opportunities for
                   improvement, and practices that appeared to benefit the Unit and that may
                   be useful to other Units in their operations. The survey also sought
                   information about the Unit’s compliance with applicable laws, regulations,
                   and policy transmittals.
                   Interviews With Unit Management. We conducted structured interviews
                   with the Unit’s director (chief attorney), deputy director (chief
                   investigator), and auditor. We asked these managers to provide us with
                   additional information necessary to better understand the Unit’s
                   operations, identify opportunities for improvement, identify practices that
                   appeared to benefit the Unit and that may be useful to other Units in their
                   operations, and clarify information obtained from other data sources.
                   Onsite Review of Case Files. We selected a simple random sample of
                   100 case files from the 1,472 cases 26 that were open at any point from
                   FY 2009 through FY 2011. The design of this sample allowed us to

                   22
                      The PMS is a grant payment system operated and maintained by the HHS Program
                   Support Center, Division of Payment Management. The PMS provides disbursement,
                   grant monitoring, reporting, and cash management services to awarding agencies and
                   grant recipients, such as Units.
                   23
                      Program income is defined as “gross income received by the grantee or subgrantee
                   directly generated by a grant supported activity, or earned only as a result of the grant
                   agreement during the grant period.” 45 CFR § 92.25(b).
                   24
                      The Criminal Division Supervisor supervises the Unit Director.
                   25
                      This report uses the terms “management” and “supervisors” interchangeably.
                   “Nonmanagement” employees are Unit staff members who have no supervisory
                   authority.
                   26
                      This figure includes cases opened before FY 2009 that remained open at some point
                   during FYs 2009–2011.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                              6
                   estimate the proportion of all 1,472 case files with certain characteristics
                   +/- 10 percent at the 95-percent confidence level. We reviewed these
                   100 sampled case files and the Unit’s processes for monitoring the status
                   and outcomes of cases. From these 100 case files, we selected another
                   simple random sample of 50 for a more in-depth review of potential
                   issues. This second-phase sample of 50 cases allowed us to conduct a
                   more comprehensive review to identify other potential issues from a
                   qualitative perspective. For population and sample size counts, as well as
                   confidence interval estimates, see Appendix D.
                   Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
                   operations. Specifically, we observed intake of referrals, data analysis
                   operations, security of data and case files, and the general functioning of
                   the Unit.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency. 27




                   27
                      Full text of these standards is available online at http://www.ignet.gov/pande/
                   standards/oeistds11.pdf.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                       7
                   FINDINGS
                   From FY 2009 through FY 2011, the Unit reported
                   recoveries of $95 million and obtained
                   192 convictions and 86 civil judgments or settlements
                   The Unit reported recoveries of $95 million from FY 2009 through
                   FY 2011—an average of $31.7 million annually (see Table 2). Of the
                   $95 million in recoveries, the Unit attributed $82 million to civil
                   recoveries and $13 million to criminal recoveries. The Unit’s annual
                   average expenditures for FYs 2009 through 2011 were $4.6 million. 28
                   Table 2: Louisiana MFCU Recovered Funds, FYs 2009 through 2011
                                                                                                          Total        Annual
                                                FY 2009           FY 2010           FY 2011
                                                                                                     Recoveries       Average
                    Reported
                    Criminal                 $2,192,365        $4,959,531       $5,748,227           $12,900,123    $4,300,041
                    Recoveries

                    Reported Civil
                                             $8,948,818      $52,645,597       $20,576,309           $82,170,724   $27,390,241
                    Recoveries

                    Total Reported
                                            $11,141,183      $57,605,128       $26,324,536           $95,070,847   $31,690,282
                    Recoveries

                    Total
                                             $4,399,538        $4,616,945        $4,752,048          $13,768,531    $4,589,510
                    Expenditures

                   Source: OIG analysis of Unit data and Quarterly Statistical Reports, FYs 2009 through 2011.


                   From FY 2009 through FY 2011, the Unit obtained 192 convictions and
                   86 civil judgments or settlements—an average of 64 convictions and
                   29 civil judgments or settlements annually. The Unit’s total reported
                   recoveries increased by 417 percent from FY 2009 through FY 2010 and
                   by 136 percent over the review period as a whole. 29 The Unit’s reported
                   criminal recoveries increased by 162 percent over the review period.
                   From FY 2009 through FY 2011, provider fraud
                   referrals to the Unit increased by 21.4 percent and the
                   Unit received patient abuse and neglect referrals from
                   a variety of sources
                   According to Performance Standard 4, a Unit should ensure that it
                   “maintains an adequate workload through referrals” from the State
                   Medicaid agency and other sources. Total provider fraud referrals to the
                   Unit increased from 145 in FY 2009 to 176 in FY 2011—an increase of
                   21.4 percent over the review period. From FY 2009 through FY 2011, the
                   Unit received 1,043 total referrals—an average of 348 annually. Of these,
                   504 (48 percent) were related to provider fraud—an average of

                   28
                        The figures presented in this paragraph are rounded.
                   29
                        A significant portion of the increase in FY 2010 was due to a large global settlement.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                                           8
                   168 annually. Of the 1,043 total referrals, 539 (52 percent) were related to
                   patient abuse and neglect—an average of 180 annually.
                   Six of eight interviewed individual stakeholders reported that the Unit’s
                   collaborative working relationships with outside agencies benefitted the
                   Unit’s overall production and increased the number of referrals it received
                   during the review period. In addition, both the Unit Director and the
                   DHH Program Integrity Director reported that the “great” working
                   relationship between the Unit and DHH benefitted the Unit by ensuring a
                   consistent number of referrals. According to Unit management and
                   OIG staff who work with the Unit, the Unit’s relationship with OIG also
                   benefitted Unit performance, as demonstrated by the 42 provider fraud
                   referrals the Unit received from OIG during the review period.
                   The Unit received patient abuse and neglect referrals from a
                   variety of sources
                   According to Performance Standard 4(d), a Unit should ensure that it
                   receives adequate patient abuse and neglect referrals from a variety of
                   sources. 30 During the review period, 8 sources each referred 10 or more
                   patient abuse and neglect complaints to the Unit. Of the 539 patient abuse
                   and neglect referrals received by the Unit, 156 (29 percent) were referred by
                   DHH, 141 (26 percent) by health care providers, and 135 (25 percent) by
                   the State survey and certification agency—the Health Standards Section of
                   DHH.
                   Provider Outreach Program. Unit management and a few staff indicated
                   that the Unit’s outreach program to providers and provider trainees
                   benefitted the Unit’s performance by generating a high number of provider
                   referrals and promoting fraud and abuse/neglect deterrence. The outreach
                   program consists of statewide visits by Unit presenters to inform providers
                   and provider trainees of the State’s mandatory abuse/neglect reporting rule,
                   describe the various types of fraud and abuse/neglect, discuss Federal and
                   State laws regarding fraud and abuse/neglect, and provide Unit contact
                   information for the reporting of Medicaid-related crime. According to Unit
                   staff, the outreach program is very successful and providers frequently ask
                   the Unit to present its program annually. One Unit staff member noted that
                   the outreach program “gets our names and faces out [across the State] and it
                   has proven to be fruitful. I, personally, have had calls from [provider]
                   employees who sat through [an outreach presentation] and wanted to report
                   something to me later.”




                   30
                        For a breakdown of referral sources, see Appendix B, Table B-2.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                 9
                   All reviewed case files contained documentation
                   indicating supervisory approval to open cases and
                   94 percent of closed case files contained
                   documentation indicating supervisory approval to
                   close cases
                   According to Performance Standard 6(b), Unit supervisors should approve
                   the opening and closing of cases to help ensure a continuous case flow and
                   the timely completion of cases. Supervisory approval to open and close
                   cases demonstrates that Unit supervisors are monitoring the intake of cases
                   and the timeliness of case resolutions, thereby promoting the efficiency
                   and effectiveness of Unit staff. The Unit documented supervisory
                   approval to open cases in all 100 reviewed case files 31 and to close cases in
                   94 percent of closed case files.
                   Twenty-two percent of the total Unit case files lacked
                   documentation indicating at least one supervisory
                   review and 28 percent lacked documentation
                   indicating additional, periodic supervisory reviews
                   According to Performance Standard 6(c), supervisory reviews should be
                   “conducted periodically and noted in the case file” to ensure timely case
                   completion. 32 Twenty-two percent of Unit case files lacked
                   documentation indicating at least one supervisory review and 28 percent
                   of the total case files lacked documentation of additional, periodic
                   supervisory reviews. 33 Of the 28 case files in our sample lacking
                   documentation indicating periodic supervisory reviews, 11 (39 percent)
                   indicated that the cases were open for more than a year. 34 Four of these
                   28 case files (14 percent) indicated that the cases were open for 3 or more
                   years. Of these 28 cases, 25 were criminal (16 involved provider fraud
                   and 9 involved patient abuse or neglect) and 3 were civil.
                   Unit management explained that they frequently review cases through
                   informal conversations that are not always documented in the case files.
                   In addition, the Unit Director and Chief Investigator conduct formal case
                   status reviews of every open case with senior investigators on a quarterly

                   31
                      Although we cannot conclude that all 1,472 case files contained documentation
                   indicating supervisory approval to open cases, we are 95-percent confident that between
                   1,420 and 1,472 case files contain such documentation because the 95-percent confidence
                   interval for this projection is 96.5–100%.
                   32
                      For the purposes of this report, supervisory approval to open and close a case does not
                   constitute a case file “review.” Periodic supervisory review indicates that a supervisor
                   reviewed a case more than once between its opening and closing.
                   33
                      Ten additional case files lacked documentation indicating periodic supervisory review.
                   However, these case files were open for 3 months or less and may not have warranted
                   periodic supervisory review.
                   34
                      We were unable to confidently project these percentages to all 1,472 case files due to
                   the small sample size.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                         10
                   basis. Since our onsite review, Unit management has mandated that Unit
                   investigators complete a “case file review checklist.” According to
                   management, the checklist is used as a guide throughout the investigation
                   and prosecution stages of cases to ensure that all pertinent documentation
                   is included in Unit case files. The Unit has documented these processes in
                   its policies and procedures manual and provided us with a copy of both the
                   checklist and the revised policies and procedures.

                   The Unit did not refer 14 percent of sentenced
                   providers to OIG for program exclusion within the
                   appropriate timeframe
                   According to Performance Standard 8(d), when a convicted provider is
                   sentenced, the Unit should send a referral letter to OIG “within 30 days or
                   other reasonable time period” for the purpose of program exclusion. 35 The
                   Unit referred 165 of 192 (86 percent) sentenced providers to OIG within the
                   appropriate timeframe, and 27 (14 percent) of the sentenced providers
                   outside the appropriate timeframe. However, after our onsite review, the
                   Unit referred these 27 sentenced providers to OIG for program exclusion.
                   In addition, since our onsite review, the Unit has implemented new
                   procedures to ensure that notification letters are sent to OIG for program
                   exclusion within the appropriate timeframe.

                   The Unit had not updated its MOU with DHH to reflect
                   current law and practice
                   According to Performance Standard 10, Units should periodically review
                   their MOUs with the State Medicaid agency—DHH—to ensure that they
                   reflect current law and practice. As required by Federal regulation, the Unit
                   had an MOU with DHH. 36 However, the MOU was not revised to reflect
                   recent legal changes that allow the Unit to refer any provider under
                   investigation of a credible fraud allegation to DHH for payment
                   suspension. 37 Although the Unit reported making referrals on the basis of
                   credible fraud allegations, both Unit management and DHH officials stated
                   that they are aware of the issue and will update the MOU to reflect the legal
                   change. 38

                   35
                      Pursuant to 42 U.S.C. § 1320a-7(a), OIG excludes from participation in Federal health
                   care programs any person or entity convicted of a criminal offense related to the delivery
                   of an item or service under the Medicaid program or to the neglect or abuse of patients in
                   residential health care facilities. No payment may be made by Medicaid, Medicare, or
                   other Federal health care programs for an item or service provided, ordered, or prescribed
                   by an excluded individual or entity. 42 CFR § 1001.1901.
                   36
                      42 CFR § 1007.9(d).
                   37
                      42 CFR § 455.23 and 42 CFR § 1007.9(e).
                   38
                      Although we reviewed the MOU, we did not independently verify whether the Unit
                   actually referred providers on the basis of a credible fraud allegation.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                         11
                   The Unit maintained proper fiscal control of its
                   resources, but did not report program income properly
                   in FYs 2010 and 2011
                   According to Performance Standard 11, the Unit Director should exercise
                   proper fiscal control over the Unit’s resources. “Control” includes
                   maintaining an equipment inventory, using generally accepted accounting
                   principles, properly reporting program income, and conducting proper
                   reporting between the Unit and its State parent agency.
                   From FY 2009 through FY 2011, the Unit claimed expenditures that
                   represented allowable costs in accordance with applicable Federal
                   regulations. In addition, the Unit maintained adequate internal controls
                   relating to accounting, budgeting, personnel, procurement, property, and
                   equipment. However, the Unit did not report as program income
                   $10,773 it received for investigative and legal costs incurred while
                   investigating patient abuse and neglect cases in FYs 2010 and 2011. 39
                   According to OIG policy, any funds received by the Unit—including
                   reimbursements for expenses incurred during patient abuse and neglect
                   investigations—that meet the definition of program income 40 must be
                   reported on the Unit’s Federal Financial Status Reports and deducted from
                   total costs under the grant in accordance with Federal regulations. 41
                   Because the Unit did not follow OIG policy by reporting and deducting
                   this program income, the Unit withdrew $8,080 more from the
                   HHS Payment Management System than it was entitled to receive. 42
                   Since our review, the Unit has agreed to reimburse the overdrawn funds
                   and has implemented procedures to ensure that future investigative and
                   legal costs that meet the definition of program income will be properly
                   reported on Federal Financial Status Reports and deducted from total costs
                   under the grant.




                   39
                      The Unit reports annual expenses and program income on its Federal Financial Status
                   Reports to account for how much money the Unit “draws down,” or withdraws, as
                   reimbursement from the PMS as Federal reimbursement for its annual operating costs.
                   40
                      45 CFR § 92.25(b); OIG State Fraud Policy Transmittal 10-01, Program Income
                   (March 22, 2010).
                   41
                      OIG State Fraud Policy Transmittal 10-01, Program Income (March 22, 2010).
                   42
                      This amount represents the Federal share (75 percent) of the Unit’s budget; in this case,
                   $8,080 of the $10,773 total expenses. The State is responsible for the remaining
                   25 percent of the $10,773 total ($2,693). OIG policy requires Units to deduct program
                   income from their total costs under the grant, pursuant to 45 CFR § 92.25(g)(1), thus
                   making the 75-percent share unallowable.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                           12
                   CONCLUSION AND RECOMMENDATIONS
                   From FY 2009 through FY 2011, the Unit obtained 192 convictions and
                   86 civil judgments or settlements, received 1,043 referrals from DHH and
                   a variety of other sources, and reported recoveries of $95 million.
                   Provider fraud referrals received by the Unit increased by 21.4 percent
                   during the review period, and the Unit received patient abuse and neglect
                   referrals from a variety of sources. Unit management, stakeholders, and
                   staff indicated that the Unit’s collaborative working relationships with
                   outside agencies and its statewide provider outreach program were
                   beneficial to increasing the number of provider fraud referrals the Unit
                   received. Unit case files consistently contained documentation indicating
                   supervisory approval to open and close cases. Finally, the Unit maintained
                   proper control of its fiscal resources.
                   Additional opportunities for improvement exist. Specifically, 22 percent
                   of the total Unit cases files lacked documentation indicating at least one
                   supervisory review and 28 percent of case files lacked documentation
                   indicating additional, periodic supervisory reviews. Out of 192 sentenced
                   providers in FYs 2009–2011, the Unit did not refer 27 (14 percent) to
                   OIG for program exclusion within the appropriate timeframe. In addition,
                   the Unit’s MOU with DHH was not updated to reflect recent legal
                   changes. Finally, the Unit did not report program income properly or
                   deduct this from the total costs under its Federal grant in FYs 2010 and
                   2011. With the exception of not reporting and deducting all of its program
                   income, we found no evidence of Unit noncompliance with applicable
                   laws, regulations, and policy transmittals.
                   Since the onsite review, the Unit has reported that it has implemented
                   practices to improve its operations and performance, including mandating
                   that Unit investigators complete a “case file review checklist” and
                   ensuring that notification letters are sent to OIG for program exclusion
                   within the appropriate timeframe. The Unit has documented these
                   processes in its policies and procedures manual and provided us with a
                   copy of both the checklist and the revised policies and procedures.
                   On the basis of these findings, we recommend that the Louisiana Unit:
                   Revise Its Policies and Procedures To Ensure That Periodic
                   Supervisory Reviews Are Documented in Unit Case Files
                   Ensure That Letters Referring Providers for Exclusion Are
                   Submitted to OIG Within the Appropriate Timeframe
                   The Unit should ensure that letters referring providers for exclusion are
                   sent within 30 days of defendant sentencing or another reasonable time
                   period, as required by the performance standards.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)              13
                   Revise Its MOU With DHH To Reflect Current Law and Practice
                   The Unit should revise its MOU with DHH to specify that the Unit may
                   refer any provider suspected of fraud for payment suspension to DHH and
                   to describe the procedure for this type of referral.
                   Ensure That All Program Income Is Reported Properly on Its
                   Federal Financial Status Reports
                   The Unit should report its program income according to guidelines set out
                   in OIG State Fraud Policy Transmittal 10-01. In addition, the Unit should
                   reimburse OIG $8,080 for the unallowable HHS Payment Management
                   System withdrawals in FYs 2010 and 2011.




Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)         14
                   UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   The Unit concurred with all but the first of our four recommendations.
                   Regarding our second recommendation, the Unit implemented new
                   procedures to ensure that letters referring providers for exclusion are sent
                   to OIG within the appropriate timeframe. These new procedures include
                   sending an automated case tracking system email to investigators and
                   supervisors reminding them to send the appropriate referral letter to OIG
                   upon the sentencing of a provider.
                   Regarding our third recommendation, the Unit is reviewing the entire
                   MOU with DHH and will revise it as needed. The Unit and DHH will
                   work to complete a revised MOU in 2013.
                   Regarding our fourth recommendation, the Unit agreed to reimburse OIG
                   for the overdrawn funds and has implemented new procedures to ensure
                   that program income is properly reported on Federal Financial Status
                   Reports and that the proper amount is withdrawn annually from the HHS
                   Payment Management System.
                   The Unit did not concur with our first recommendation, to revise its
                   policies and procedures to ensure periodic supervisory reviews are
                   documented in Unit case files. Despite its nonconcurrence, the Unit is
                   implementing new procedures to ensure that case files include
                   documentation of all future supervisory reviews. This new procedure
                   directly addresses our recommendation.
                   The full text of the Unit’s comments is provided in Appendix E. We did
                   not make any changes to the report based on the Unit’s comments.




Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)             15
                   APPENDIX A
                   Performance Standards for Medicaid Fraud Control Units
                   (Unit) 43
                   1. A Unit will be in conformance with all applicable statutes,
                      regulations and policy transmittals. In meeting this standard, the
                      Unit must meet, but is not limited to, the following requirements:
                        a. The Unit professional staff must consist of permanent employees
                           working full-time on Medicaid fraud and patient abuse matters.
                        b. The Unit must be separate and distinct from the State Medicaid
                           agency.
                        c. The Unit must have prosecutorial authority or an approved formal
                           procedure for referring cases to a prosecutor.
                        d. The Unit must submit annual reports, with appropriate
                           certifications, on a timely basis.
                        e. The Unit must submit quarterly reports on a timely basis.
                      f. The Unit must comply with the Americans with Disabilities Act,
                          the Equal Employment opportunity requirements, the Drug Free
                          workplace requirements, Federal lobbying restrictions, and other
                          such rules that are made conditions of the grant.
                   2. A Unit should maintain staff levels in accordance with staffing
                      allocations approved in its budget. In meeting this standard, the
                      following performance indicators will be considered:
                        a. Does the Unit employ the number of staff that was included in the
                           Unit's budget as approved by the Office of Inspector General
                           (OIG)?
                        b. Does the Unit employ the number of attorneys, auditors, and
                           investigators that were approved in the Unit's budget?
                        c. Does the Unit employ a reasonable size of professional staff in
                           relation to the State's total Medicaid program expenditures?
                      d. Are the Unit office locations established on a rational basis and are
                          such locations appropriately staffed?
                   3. A Unit should establish policies and procedures for its operations,
                      and maintain appropriate systems for case management and case
                      tracking. In meeting this standard, the following performance
                      indicators will be considered:


                   43
                     59 Fed. Reg. 49080 (Sept. 26, 1994). These performance standards were in effect at
                   the time of our review and precede the performance standards published in June 2012.

Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                         16
                       a. Does the Unit have policy and procedure manuals?
                       b. Is an adequate, computerized case management and tracking
                           system in place?
                   4. A Unit should take steps to ensure that it maintains an adequate
                       workload through referrals from the single State agency and other
                       sources. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Does the Unit work with the State Medicaid agency to ensure
                          adequate fraud referrals?
                       b. Does the Unit work with other agencies to encourage fraud
                          referrals?
                       c. Does the Unit generate any of its own fraud cases?
                      d. Does the Unit ensure that adequate referrals of patient abuse
                          complaints are received from all sources?
                   5. A Unit’s case mix, when possible, should cover all significant
                      provider types. In meeting this standard, the following performance
                      indicators will be considered:
                       a. Does the Unit seek to have a mix of cases among all types of
                          providers in the State?
                       b. Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                          patient abuse cases?
                       c. Does the Unit seek to have a mix of cases that reflect the
                          proportion of Medicaid expenditures for particular provider
                          groups?
                       d. Are there any special Unit initiatives targeting specific provider
                          types that affect case mix?
                      e. Does the Unit consider civil and administrative remedies when
                          appropriate?
                   6. A Unit should have a continuous case flow, and cases should be
                      completed in a reasonable time. In meeting this standard, the
                      following performance indicators will be considered:
                       a. Is each stage of an investigation and prosecution completed in an
                          appropriate time frame?
                       b. Are supervisors approving the opening and closing of
                          investigations?
                       c. Are supervisory reviews conducted periodically and noted in the
                          case file?


Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)              17
                   7. A Unit should have a process for monitoring the outcome of cases.
                      In meeting this standard, the following performance indicators will be
                      considered:
                       a. The number, age, and type of cases in inventory.
                       b. The number of referrals to other agencies for prosecution.
                       c. The number of arrests and indictments.
                       d. The number of convictions.
                       e. The amount of overpayments identified.
                       f. The amount of fines and restitution ordered.
                       g. The amount of civil recoveries.
                      h. The numbers of administrative sanctions imposed.
                   8. A Unit will cooperate with the OIG and other federal agencies,
                      whenever appropriate and consistent with its mission, in the
                      investigation and prosecution of health care fraud. In meeting this
                      standard, the following performance indicators will be considered:
                       a. Does the Unit communicate effectively with the OIG and other
                          Federal agencies in investigating or prosecuting health care fraud
                          in their State?
                       b. Does the Unit provide OIG regional management, and other
                          Federal agencies, where appropriate, with timely information
                          concerning significant actions in all cases being pursued by the
                          Unit?
                       c. Does the Unit have an effective procedure for referring cases,
                          when appropriate, to Federal agencies for investigation and other
                          action?
                      d. Does the Unit transmit to the OIG, for purposes of program
                          exclusions under section 1128 of the SSA, reports of convictions,
                          and copies of Judgment and Sentence or other acceptable
                          documentation within 30 days or other reasonable time period?
                   9. A Unit should make statutory or programmatic recommendations,
                      when necessary, to the State government. In meeting this standard,
                      the following performance indicators will be considered:
                       a. Does the Unit recommend amendments to the enforcement
                          provisions of the State's statutes when necessary and appropriate to
                          do so?
                       b. Does the Unit provide program recommendations to single State
                          agency when appropriate?


Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)             18
                       c. Does the Unit monitor actions taken by State legislature or State
                           Medicaid agency in response to recommendations?
                   10. A Unit should periodically review its memorandum of
                       understanding (MOU) with the State Medicaid agency and seek
                       amendments, as necessary, to ensure it reflects current law and
                       practice. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Is the MOU more than 5 years old?
                       b. Does the MOU meet Federal legal requirements?
                       c. Does the MOU address cross-training with the fraud detection staff
                          of the State Medicaid agency?
                       d. Does the MOU address the Unit’s responsibility to make program
                           recommendations to the Medicaid agency and monitor actions
                           taken by the Medicaid agency concerning those recommendations?
                   11. The Unit director should exercise proper fiscal control over the
                       Unit resources. In meeting this standard, the following performance
                       indicators will be considered:
                       a. Does the Unit director receive on a timely basis copies of all fiscal
                          and administrative reports concerning Unit expenditures from the
                          State parent agency?
                       b. Does the Unit maintain an equipment inventory?
                       c. Does the Unit apply generally accepted accounting principles in its
                           control of Unit funding?
                   12. A Unit should maintain an annual training plan for all
                       professional disciplines. In meeting this standard, the following
                       performance indicators will be considered:
                       a. Does the Unit have a training plan in place and funds available to
                          fully implement the plan?
                       b. Does the Unit have a minimum number of hours training
                          requirement for each professional discipline, and does the staff
                          comply with the requirement?
                       c. Are continuing education standards met for professional staff?
                       d. Does the training undertaken by staff aid to the mission of the
                          Unit?




Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)             19
                    APPENDIX B
                   Referrals of Provider Fraud and Patient Abuse and Neglect to
                   the Medicaid Fraud Control Unit by Source, Fiscal Years
                   2009 through 2011
                   Table B-1: Total Medicaid Fraud Control Unit Fraud and Abuse Referrals
                   and Annual Average

                                                                                                                          Annual
                    Case Type                             FY 2009          FY 2010     FY 2011          3-Year Total
                                                                                                                          Average
                    Patient Abuse and Neglect                    166           220           153                539               180
                    Provider Fraud                               145           183           176                504               168
                       Total                                     311           403           329               1,043              348

                   Source: Office of Inspector General (OIG) analysis of Louisiana Medicaid Fraud Control Unit (Unit) Quarterly
                   Statistical Reports, fiscal years (FY) 2009 through 2011.


                   Table B-2: Unit Referrals, by Referral Source

                                            FY 2009                 FY 2010                 FY 2011
                                                    Abuse                   Abuse                   Abuse                Percentage
                    Referral
                                       Fraud          and      Fraud          and      Fraud          and       Total         of All
                    Source
                                                   Neglect                 Neglect                 Neglect                 Referrals
                    State
                    Medicaid               89            41         85          88          93            27     423              40.6
                    Agency
                    Providers                4           51            6        61           7            29     158              15.2
                    State
                    Survey and               2           46            3        32           8            57     148              14.2
                    Certification
                    Other                  33            13         35          11          37             4     133              12.8
                    Private
                                             8            4         10          10           8             9      49               4.7
                    Citizens
                    OIG                      0            1         34            0          8             0      43               4.1
                    Law
                                             2            2            3          3          3            13      26               2.5
                    Enforcement
                    Other State
                                             2            6            2          8          3             0      21               2.0
                    Agencies
                    Licensing
                                             2            2            2          2          1            12      21               2.0
                    Board
                    Unit Hotline             0            0            3          5          4             0      12               1.2
                    Outside
                                             2            0            0          0          3             1        6              0.6
                    Prosecutors
                    Long-Term
                    Care                     0            0            0          0          1             1        2              0.2
                    Ombudsman
                    Private
                    Health                   1            0            0          0          0             0        1              0.1
                    Insurers
                       Total              145           166       183          220        176            153   1,043               100

                   Source: OIG analysis of Unit Quarterly Statistical Reports, FYs 2009 through 2011.




Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                                                 20
                   APPENDIX C
                   Investigations Opened and Closed by Provider Category and
                   Case Type, Fiscal Years 2009 through 2011
                   Table C-1: Total Annual Opened and Closed Investigations


                    Case Type                       FY 2009       FY 2010       FY 2011       3-Year Total       Annual Average

                    Opened                                312           404           327               1,043                     348
                       Patient Abuse and
                                                          164           219           150                533                      178
                       Neglect
                       Provider Fraud                     148           185           177                510                      170


                    Closed                                347           394           330               1,071                     357
                       Patient Abuse and
                                                          236           220           167                623                      208
                       Neglect
                       Provider Fraud                     111           174           163                448                      149

                  Source: Office of Inspector General (OIG) analysis of Louisiana Medicaid Fraud Control Unit (Unit) Quarterly
                  Statistical Reports, fiscal years (FY) 2009 through 2011.


                   Table C-2: Total Investigations, by Case Type

                                                    FY 2009                    FY 2010                    FY 2011
                    Case Type
                                              Opened        Closed       Opened        Closed       Opened        Closed         Total
                    Patient Abuse and
                                                   164          236           219           220           150         166        1,155
                    Neglect
                    Provider Fraud                 148          111           185           174           177         163         958
                       Total                       312          347           404           394           327         329        2,113

                   Source: OIG analysis of Unit Quarterly Statistical Reports, FYs 2009 through 2011.

                   Table C-3: Patient Abuse and Neglect Investigations

                    Provider                        FY 2009                    FY 2010                    FY 2011
                    Category
                                              Opened        Closed       Opened        Closed       Opened        Closed         Total
                    Certified Nurse
                                                   121          131           153           148            93         113         759
                    Aides
                    Other Providers                  21          63             20           37            20           15        176
                    Nurses/Doctors’
                                                      8            9            19           13            22           20         91
                    Assistants
                    Home Health
                                                      9          20              8            6             2            3         48
                    Aides
                    Nursing Facilities                1          10              9            5             4            7         36
                    Nondirect Care
                                                      3            3             6            7             6            4         29
                    Providers
                    Other Long-Term
                                                      1            0             4            4             3            4         16
                    Care Facilities
                       Total                       164          236           219           220           150         166        1,155

                   Source: OIG analysis of Unit Quarterly Statistical Reports, FYs 2009 through 2011.



Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                                                  21
                   Table C-4: Provider Fraud Investigations

                    Provider
                                                    FY 2009                    FY 2010                  FY 2011
                    Category
                    Facilities                Opened        Closed       Opened        Closed       Opened    Closed    Total
                    Hospitals                         7            4             3            6          3         2      25
                    Nursing Facilities                3            1             1            1          2         4      12
                    Other Long-Term
                                                      0            1             0            0          0         0       1
                    Care Facilities
                    Practitioners             Opened        Closed       Opened        Closed       Opened    Closed    Total
                    Doctors of
                    Medicine or                      23          26             16           19         19        19     122
                    Osteopathy
                    Dentists                          3            2            10            4          4         1      24
                    Optometrists/
                                                      1            0             0            0          3         2       6
                    Opticians
                    Other
                                                      0            1             1            1          0         1       4
                    Practitioners
                    Counselors/
                                                      0            0             1            0          1         0       2
                    Psychologists
                    Podiatrists                       0            1             0            0          0         0       1
                    Medical Support           Opened        Closed       Opened        Closed       Opened    Closed    Total
                    Home Health
                                                     71          42           105            85         100       93     496
                    Care Aides
                    Other Medical
                                                     12          16              9           16         13        12      78
                    Support
                    Pharmaceutical
                                                      6            1             3           11         13        13      47
                    Manufacturers
                    Durable Medical
                    Equipment                         0            1            21            5          4         5      36
                    Suppliers
                    Transportation
                                                     10            1             5           11          4         4      35
                    Services
                    Pharmacies                        3            7             3            5          3         3      24
                    Laboratories                      3            4             2            2          1         3      15
                    Home Health
                                                      2            0             2            3          5         0      12
                    Care Agencies
                    Nurses/Doctors’
                                                      1            3             0            2          1         0       7
                    Assistants
                    Program Related           Opened        Closed       Opened        Closed       Opened    Closed    Total
                    Medicaid Program
                                                      2            0             3            3          0         1       9
                    Administration
                    Billing Companies                 0            0             0            0          1         0       1
                    Other Program
                                                      1            0             0            0          0         0       1
                    Related
                       Total                       148          111           185          174          177       163    958

                   Source: OIG analysis of Unit Quarterly Statistical Reports, FYs 2009 through 2011.




Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                                         22
                   APPENDIX D
                   Case File Review Population, Sample Size Counts, and
                   Confidence Interval Estimates
                   Table D-1 shows population and sample counts and percentages by case
                   type. Note that both samples have percentages of case types similar to the
                   general population, though sample counts for some case types are very
                   small. Because of these small sample sizes, we cannot reliably generalize
                   what we found in our sample review to each case type in the population,
                   and only our overall estimates project to the population of all case files.
                   We estimated the 4 population values for all 1,472 case files from the
                   results of our review of the case files selected in our simple random
                   samples. Table D-2 includes the estimate descriptions, sample sizes, point
                   estimates, and 95-percent confidence intervals for these four estimates.


                   Table D-1: Population and Sample Size Counts for Case Types

                                                  Population Count and             Sample Count* and            Sample Count* and
                    Case Type
                                                           (%) n=1,472                     (%) n=100                     (%) n=50

                    Closed                                     1,127 (77%)                      70 (70%)                     37 (74%)

                    Open                                         345 (23%)                      30 (30%)                     13 (26%)




                    Civil                                           59 (4%)                        4 (4%)                       2 (4%)

                    Criminal                                   1,413 (96%)                      96 (96%)                     48 (96%)




                    Global                                          46 (3%)                        3 (3%)                       2 (4%)


                    Patient
                                                                 736 (50%)                      50 (50%)                     25 (50%)
                    Abuse/Neglect

                    Provider Fraud                               690 (47%)                      47 (47%)                     23 (46%)

                   Source: The Medicaid Fraud Control Unit provided a list of all case files open during fiscal years 2009 through
                   2011.
                   *The Office of Inspector General generated this random sample.




Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                                                    23
                   Table D-2: Confidence Intervals for Key Case File Review Data
                                                                            Point   95-Percent Confidence
                    Estimate Description           Sample Size
                                                                         Estimate                 Interval
                    Case Files With
                    Documented Supervisory                   100           100.0%             96.5–100.0%
                    Approval for Opening
                    Case Files With
                    Documented Supervisory                    70            94.3%              86.3–98.4%
                    Approval for Closing
                    Case Files With
                    Documentation Indicating
                                                             100            78.0%              68.9–85.5%
                    at Least One Supervisory
                    Review
                    Case Files With No
                    Documentation Indicating
                                                             100            38.0%              28.7–48.0%
                    Periodic Supervisory
                    Review




Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                       24
                   APPENDIX E
                   Unit Comments




Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)   25
Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)   26
Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)   27
Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)   28
                       Procedures have been implemented which include a notice to our accounting staff identifying
               those receipts which are to be included in program income so that that any investigation/legal costs
               which are recovered in the future that meet the definition of program income will be properly reported
               on the Federal Financial Status Report and deducted from total costs under the grant. The $8,080 (.09%
               of the Unit's FY 10 & 11 approved budget) identified as being an unallowable HHS Payment System
               withdrawal during the two year period FY 2010 and FY 2011 will be reimbursed to OIG. This will be
               accomplished by offsetting our FY13 award through a reduction in our award by $8,080 for our second
               quarter advance.


               Conclusion
                       The Louisiana MFCU would again like to express our appreciation of the efforts of HHS-OIG in
               conducting this review in such a courteous and professional manner. We would also like to note that
               your staff members were understanding of the difficulties and challenges facing MFCUs in implementing
               the performance    stand;~rds.   We also appreciate the open lines of communication with your staff
               throughout the review process and the constructive criticism offered by your staff. We appreciate this
               opportunity to improve our operations so that we may complete our mission more efficiently and
               effectively.


                                                                                  Respectfully submitted,




                                                                                      /S/
                                                                                  Frederick A. Duhy, Jr.
                                                                                  Assistant Attorney General
                                                                                  Director, Medicaid Fraud Control Unit




Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)                                         29
                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Timothy S. Brady, Regional
                   Inspector General for Evaluation and Inspections in the San Francisco
                   regional office, and Michael Henry, Deputy Regional Inspector General.
                   Matthew DeFraga served as the lead analyst for this study. Central office
                   staff who provided support include Susan Burbach, Kevin Farber, and
                   Debra Roush. Office of Audit Services staff who provided support include
                   Gupa Goha, Ryan Moul, and Clarissa Yu. Office of Investigations staff
                   who provided support include Jeannine Morgan.




Louisiana State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-09-12-00010)         30
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
